              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR



                                                                                           July 30, 201 2

Memorandum

To:            Eric Eisenstein
               Division Chief, Internal Control and Audit Follow-up
               Office of Financial Management

From:          Mic?ael P.  cotomboa~~~~
               Regwnal Manager
                                         (.




Subject:       Verification Review of Recommendations of our January 2007 Audit Report,
               "Proper Use of Cooperative Agreements Could Improve Interior's Initiatives for
               Collaborative Partnerships" (Report No. W-IN-MOA-0086-2004)
               Report No. WR-VS-MOA-0010-2012

        The U.S. Department ofthe Interior (Department) Office oflnspector General (OIG) has
completed a verification review of the five recommendations presented in the subject audit
report. The objective of the verification review was to determine whether the recommendations
were implemented by the Office of Acquisition and Property Management (PAM) as reported to
the Office of Financial Management (PFM), Office of Policy, Management and Budget. PFM
reported to OIG when the Department had addressed each of the five recommendations in the
subject report and provided supporting documentation. Based on our verification, we consider
Recommendations 2, 3, 4, and 5 resolved and implemented and Recommendation 1 resolved but
not implemented.

Background

        Our January 2007 audit report, "Proper Use of Cooperative Agreements Could Improve
Interior's Initiatives for Collaborative Partnerships," contained five recommendations relating to
the Departments use and management of cooperative agreements and grants.

        In a memorandum dated April 11 , 2007, the Associate Deputy Secretary generally agreed
with the overall findings that program and administrative improvements and management
support were needed. The Associate Deputy Secretary also provided a list of corrective actions
and target implementation dates associated with each recommendation. On April 16, 2008, we
referred the recommendations to PFM for tracking and implementation.

        Subsequently, PFM reported that all recommendations had been implemented
(memorandums dated May 29, 2008; January 22, 2009; and September 27, 2011 ). The audit
report was closed on September 27, 20 11.



                         Office of Audits, Inspections, and Evaluations I Sacramento, CA
Scope and Methodology

        The scope of this review was limited to determining whether the Department took action
to implement the recommendations. To accomplish our objective, we reviewed the supporting
documentation that PAM officials provided and discussed actions taken relating to each of the
five recommendations.

        We did not perform any site visits or conduct fieldwork to determine whether the
underlying deficiencies we initially identified have been corrected. As a result, we did not
conduct this review in accordance with the Generally Accepted Government Auditing Standards
issued by the Comptroller General of the United States or the Quality Standards for Inspections
of the Council of the Inspectors General on Integrity and Efficiency.

Results of Review

       Our current review found that the Department implemented Recommendations 2, 3, 4,
and 5 but did not implement Recommendation 1. We are requesting PFM to reinstate
Recommendation 1 and take the appropriate follow-up action.

       Recommendation 1: Establish an Interior-wide policy to require, in conjunction
       with bureau solicitors, reviews of all proposed cooperative agreements to ensure
       that (a) the bureau has legal authority, (b) there is substantial involvement by both
       parties to the agreement, (c) the correct legal instrument is used, and (d) all
       authorities and responsibilities, deliverables, cost budgets, and time frames for
       completing agreement objectives are clearly delineated.

       On March 29, 2006, the Department formally adopted 505 DM 2.8.D requiring legal
reviews for cooperative agreements in excess of $750,000. In April 2007, the Associate Deputy
Secretary response to our subject report disagreed with our recommendation to preform legal
reviews on all cooperative agreements citing 505 DM 2.8.D which requires legal reviews for
cooperative agreements with amounts in excess of $750,000.

       On December 28, 2006, PAM issued Financial Assistance Communication Liaison Policy
Release 2007-1, "Enhancing Quality Assurance in the Award and Administration of Financial
Assistance Transactions." This policy requires the use of the financial assistance review sheet,
which addresses all points in the recommendation.

        Subsequently, on January 9, 2008, the Department had taken the position that the
threshold for legal review for cooperative agreements in excess of$750,000 be dropped and that
legal reviews would not be required for all cooperative agreements. The Office of the Solicitor
was involved and concurred with the policy change. During our verification review, we learned
that the Department is updating 505 DM 2.8.D and currently proposes legal review for
cooperative agreements and any amendments that obligate in excess of $500,000. Although our
recommendation originally called for a review of all cooperative agreements we believe that
establishing a review threshold of $500,000 is a reasonable balancing of priorities and resources


                                                 2
for the administration of cooperative agreements. However, since the Department has not yet
finalized the draft of 505 DM 2.8.D, we consider this recommendation resolved but not
implemented.

       Recommendation 2: Establish an Interior-wide policy to require periodic
       management reviews of all processes related to awarding and administering
       cooperative agreements. These processes should, at a minimum, include
       determining whether (a) required legal reviews were completed, (b) competition
       was solicited, (c) substantial involvement occurred from both parties, (d) goods
       and services were obtained at allowable and reasonable costs, and (e) transactions
       were properly coded to all financial and program systems.

        PAM' s December 28, 2006 policy includes a financial assistance agreement review sheet,
which addresses all points in the recommendation. In addition, PAM issued Department of the
Interior Guidance Release 2011-03, "Financial Assistance Monitoring Protocol, " which
developed a monitoring strategy and focuses on higher risk awards. After reviewing the available
documentation, we conclude that Recommendation 2 is resolved and implemented.

       Recommendation 3: Develop competition guidelines and metrics to evaluate and
       annually report the use of competition in awarding cooperative agreements to
       maintain the transparency consistent with the customer service mandates
       prescribed in Public Law 106-107.

        PAM revised 505 DM 2.13 to state that competition in making awards through
cooperative agreements is strongly encouraged and expected. It also requires that the synopses of
all cooperative agreements be posted on www.grants.gov. As part of the bureaus' internal control
reviews, PAM requires them to describe their efforts and results to encourage competition in
awarding cooperative agreements. After reviewing the available documentation, we conclude
that Recommendation 3 is resolved and implemented.

       Recommendation 4: In conjunction with DOl's University, establish and
       implement a training program for all acqui sitions and program personnel. This
       training program should provide instruction on how to use applicable OMB
       circulars to conduct thorough cost reviews of budgeted and actual expenditures.

       In 2008, DOl University started sponsored training for Department employees
performing financial assistance functions. The training program is offered through Management
Concepts and continues to be offered to Department employees performing financial assistance
functions. After reviewing the available documentation and speaking with PAM officials, we
conclude that Recommendation 4 is resolved and implemented.

       Recommendation 5: Require cost reviews during the cooperative agreement's
       performance period to monitor billed costs and matching requirements. This
       would include comparing cost estimates developed during the application process
       to incurred costs.



                                               3
       PAM's Interior Guidance Release 20 11-03, "Financial Assistance Monitoring Protocol,"
                                                                                            .
conveys the Department and PAM's specific expectations for financial assistance. These consist
of bureau and offi ce heads holding recipients accountable for the timely receipt of financial and
programmatic reports, proactively addressing recipient problems that impede the effective
implementation of financial assistance programs, and ensuring that public funds are properly
expended. The new policy implements mandatory use of pre-award risk assessment checklist and
post-award monitoring testing methods and provides templates to accompli sh oversight of the
grantees. After reviewing the available documentation, we conclude that Recommendation 5 is
resolved and implemented.

Conclusion

       We informed PAM officials of the results of this review on July 2, 2012. PAM officials
agreed with the results of our review.

       If you have any questions about this report, please contact me at (9 16) 978-5653.

cc:    Heads of Bureaus and Offi ces
       Audit Liaison Officers




                                                4
